                                     SOCIAL SECURITY
MEMORANDUM

Date:   August 21, 2012                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Quick
             Response Evaluation: Office of Disability Adjudication and Review’s Process for
        Scheduling Hearings When Cases are in “Ready to Schedule” Status (A-08-12-21293)


        The attached final quick response evaluation presents the results of our review. Our
        objectives were to identify (1) trends regarding cases that were ready to schedule for
        hearings at selected Office of Disability Adjudication and Review hearing offices and
        (2) obstacles that impacted hearing offices’ ability to schedule hearings.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

        Attachment
    QUICK RESPONSE
     EVALUATION
Office of Disability Adjudication and
 Review’s Process for Scheduling
    Hearings When Cases are in
     “Ready to Schedule” Status
            A-08-12-21293




             August 2012
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                         Background
OBJECTIVE
Our objectives were to identify (1) trends regarding cases that were ready to schedule
for hearings at selected Office of Disability Adjudication and Review (ODAR) hearing
offices and (2) obstacles that impacted hearing offices’ ability to schedule hearings.

BACKGROUND
ODAR administers the hearings and appeals program for the Social Security
Administration (SSA) by operating 164 hearing offices and related remote sites as well
as 5 National Hearing Centers. Approximately 1,500 administrative law judges (ALJ)
conduct hearings and issue decisions.

The hearing process begins when a claimant files a hearing request 1 after a State
disability determination services office denies his/her disability claim. After receiving
this request, hearing office staff input relevant information into the Case Processing and
Management System (CPMS). Hearing office staff then prioritizes the case, assigns it
to an ALJ, and completes pre-hearing case development. Once staff develops a case,
they contact required hearing participants, work with the ALJ to set the hearing’s date
and time, and reserve the hearing location.

In a January 17, 2012 email, the Commissioner of SSA requested that we determine
why some ready to schedule (RTS) cases remained unscheduled. The Commissioner
also requested we review the role work-at-home days (Flexiplace) play in case
scheduling and report on any office dynamics that are of concern in terms of effective
service.

To accomplish our objectives, we selected 11 hearing offices to identify trends
regarding cases that were ready to schedule for hearings. We selected 7 hearing
offices with a high number (average of 190 or more) of RTS cases per ALJ as of
December 30, 2011. To provide a balanced review, we also selected 2 hearing offices
with a median average (about 57 RTS cases) per ALJ and 2 offices with a low average
(about 5 RTS cases) per ALJ.

For the hearing offices selected, we reviewed data on cases scheduled and hearings
held by ALJs. We also interviewed hearing office schedulers and hearing office
directors (HOD) at each office to identify obstacles they faced when scheduling cases
for hearings. See Appendix B for additional information about our scope and
methodology.



1
    Request for Hearing by Administrative Law Judge (SSA Form HA-501).


ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)      1
                                                             Results of Review
Of the 11 hearing offices we contacted, 8 experienced an increase in RTS cases from
April 2011 through March 2012. Hearing office staff cited various reasons for this
increase. For example, staff at several hearing offices attributed the increase to their
development of additional cases for hearings so they would have a larger inventory from
which to select when scheduling conflicts occurred. Staff at other hearing offices
attributed the increase to expanded service areas and a greater number of disability
filings. In contrast, three hearing offices experienced a decrease in RTS cases.
Hearing office staff attributed the decrease to transferring cases to other hearing offices,
modifying their scheduling procedures, and spending less time developing cases.

Hearing office staff cited various obstacles that impacted their ability to timely schedule
hearings. Most notably, staff cited claimant representative 2 availability as the greatest
obstacle they faced when scheduling hearings. To a lesser degree, hearing office staff
cited ALJ availability as another key obstacle that caused scheduling difficulties. Other
less cited obstacles included availability of medical and vocational experts, hearing
rooms, and video teleconferencing (VTC) equipment. Hearing office staff also reported
difficulties when scheduling hearings for incarcerated claimants.

We acknowledge that accommodating the schedules and preferences of multiple
hearing participants is difficult and cumbersome. However, based on our review of
11 hearing offices, we believe ODAR can take additional steps to address some of the
key obstacles hearing office staff face when scheduling hearings. To improve the
timeliness of hearings, we encourage ODAR to consider limiting the number of times it
offers claimant representatives specific dates and times before scheduling a hearing. In
addition, we encourage ODAR to analyze hearing office and ALJ performance data to
determine whether it should take additional steps to address key obstacles hearing
office staff face during the scheduling process. Specifically, we believe ODAR should
encourage hearing offices to better coordinate hearing dates and rooms among its
ALJs. 3 We also encourage ODAR to consider limiting ALJs’ use of Flexiplace to once a
week, where appropriate. Furthermore, we encourage ODAR to reexamine its policy of
allowing ALJs to transfer to another hearing office soon after meeting their 90-day
service requirement.

MOST HEARING OFFICES EXPERIENCED AN INCREASE IN RTS CASES

Based on our review of ODAR data, we determined that 8 of the 11 hearing offices
experienced an increase in RTS cases, as shown in Figure 1. In fact, six of the
eight hearing offices increased by more than 50 percent. The largest increase was

2
  For purposes of this report, we use the term claimant representative to primarily refer to legal
representation (attorneys and law firms).
3
  Unless SSA exercises its authority to set the time and place for a hearing before an ALJ, the ALJ sets
the time and place for the hearing. SSA, HALLEX I-2-3-10 (May 24, 2011).


ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)                        2
2,392 cases and the smallest was 57, with an average increase of 728 cases. In
contrast, 3 of the 11 offices experienced a decrease in RTS cases, as shown in
Figure 1. The largest decrease was 309 cases and the smallest was 179, with an
average decrease of 239 cases.

             Figure 1: Hearing Office Increase/Decrease in RTS Cases
     4000
     3500
     3000
     2500
     2000
     1500
     1000
      500
        0
              1      2       3        4         5     6       7        8      9    10   11
                         RTS Cases as of April 2011   RTS Cases as of March 2012


 Source: CPMS data on April 30, 2012.

Reasons for the Increase and Decrease in RTS Cases

Hearing office staff cited various reasons for the increase in RTS cases. For example,
staff at several hearing offices told us they developed additional RTS cases so they
would have a larger inventory of cases from which to select when scheduling conflicts
occurred. In fact, one HOD told us her staff met twice a month to prepare additional
cases for hearings. Staff at other hearing offices attributed the increase to expanded
service areas. For example, staff at the hearing office that experienced the largest
increase told us their RTS cases almost tripled when their service area expanded. Staff
at other hearing offices attributed the increase in RTS cases to a greater number of
disability filings. Hearing office staff stated that current economic conditions and the
aging baby boomer generation caused the increase in disability filings.

Hearing office staff cited several reasons for the decrease in RTS cases. For example,
the hearing office that experienced the largest decrease transferred 500 cases to
another hearing office, thereby reducing its RTS caseload. Staff at another office
attributed the decrease to modifications in its scheduling procedures. Although the
office still scheduled hearings from some cases in RTS status, staff told us they
primarily scheduled cases in the Unassigned ALJ Review Pre-Hearing (UNAP) status.
Staff told us that scheduling cases from UNAP facilitated scheduling because they
coordinated with all hearing participants before ALJ assignment. Hearing office staff
also reported that the Verbatim Hearing Reporter pilot program impacted their ability to
schedule cases for hearings because they also served as hearing reporters.




ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)          3
Schedulers told us the added responsibility complicated their scheduling duties because
they had less time to contact or respond to messages from hearing participants.

OBSTACLES THAT IMPACTED HEARING OFFICES’ ABILITY TO SCHEDULE
HEARINGS

Hearing office staff cited various obstacles that impacted their ability to schedule
hearings. Most notably, hearing office staff cited claimant representative availability as
the greatest obstacle in the scheduling process. To a lesser degree, hearing office staff
cited ALJ availability as another key obstacle that caused scheduling difficulties. Other,
less cited, obstacles included availability of medical and vocational experts, hearing
rooms, and VTC equipment. Hearing office staff also reported difficulties when
scheduling hearings for incarcerated claimants.

Claimant Representative Availability

Hearing office staff cited claimant representative availability as the greatest obstacle to
scheduling hearings. About two-thirds of hearing office staff we interviewed ranked
claimant representative availability as either the first or second most important obstacle
to scheduling hearings.

SSA policy requires that hearings be held as soon as possible and instructs hearing
office staff to ascertain claimant representatives’ availability before scheduling a
hearing. 4 Similarly, attorneys have an ethical obligation to make reasonable efforts to
expedite cases consistent with their clients’ interests. 5 However, hearing office staff
expressed concerns that some claimant representatives did not always appear to work
in their clients’ best interests. For example, hearing office staff reported that some
claimant representatives caused scheduling difficulties when they consistently declined
hearings on specific days. In fact, hearing office staff told us that some claimant
representatives had standing policies to refuse hearings on Mondays and Fridays.
Furthermore, one scheduler told us that two claimant representatives only accepted
hearings on Tuesdays and Thursdays.

Hearing office staff also reported that some claimant representatives requested multiple
postponements, which caused hearing delays for other developed cases. For example,
one HOD told us his staff continually rescheduled cases, some as many as eight times.
A scheduler stated that some claimant representatives accepted too many cases and
then told hearing office staff they could not accept hearing dates because they were not
prepared. One HOD told us that, to help improve the timeliness of hearings, she
instructed her staff to schedule cases for hearings after they offered claimant
representatives two hearing dates. She stated that claimant representatives must
request a postponement from the respective ALJ if they cannot attend the hearing.


4
    SSA, HALLEX I-2-3-10 (May 24, 2011).
5
    MODEL RULES OF PROFESSIONAL CONDUCT R. 3.2 (2010).


ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)           4
In addition, hearing office staff reported that some claimant representatives caused
scheduling difficulties because they did not have enough staff to represent their clients.
For example, one HOD reported that a claimant representative (who represented a
large percentage of claimants in her office) had few available days for hearings, which
made scheduling difficult. In addition, one HOD told us that some claimant
representatives scheduled hearings at the same time in different offices. Another HOD
told us that one law firm represented many claimants with aged cases, and the firm was
never available for hearings. He stated the claimant representative was difficult to
contact and he had to leave messages over half the time. To improve the timeliness of
hearings, we encourage ODAR to consider limiting the number of times they offer
claimant representatives specific dates and times before scheduling a hearing.

Below are anecdotal comments some staff at the 11 hearing offices we contacted
reported about scheduling hearings with claimant representatives.

•     One HOD told us that claimant representatives “run the show.” That is, claimant
      representatives generally determined when her hearing office scheduled hearings.
      The HOD stated that one large law firm informed her it was not available for
      hearings in July.

•     A scheduler reported that some claimant representatives declined hearing dates
      because the limited number of proposed hearings was not worth their time.

•     One scheduler told us that a claimant representative had a 2-month trial and then
      went on several vacations when the trial ended. The scheduler said she could not
      schedule hearings for 12 of the claimant representative’s cases during that time.

•     A scheduler reported that a claimant representative declined a hearing date for a
      remand case 6 and told her that “remands did not need to be heard that fast.”

ALJ Availability

Hearing office staff cited ALJ availability as the second greatest obstacle to scheduling
hearings. Specifically, about half of the hearing office staff we interviewed ranked ALJ
availability as either the first or second most important obstacle to scheduling hearings.

SSA policy allows ALJs to set the time and place for hearings. 7 However, hearing office
staff reported that scheduling difficulties occurred when ALJs primarily scheduled
hearings during the middle of the week, which increased competition for hearing dates
and rooms and often presented scheduling conflicts with other hearing participants. As
shown in Figure 2, 45 percent of ALJs did not schedule hearings on Mondays, Fridays,
or both. Hearing office staff reported that some ALJs prepared for hearings on

6
 Remands occur when an appellate or district court returns a case to an ALJ for further administrative
action.
7
    SSA, HALLEX I-2-3-10 (May 24, 2011).


ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)                      5
Mondays and finalized decisions on Fridays to meet weekly and monthly ODAR goals.
One hearing office created a scheduling calendar to better coordinate hearing dates and
rooms among its ALJs. To improve the timeliness of hearings, we believe ODAR
should encourage hearing offices to better coordinate hearing dates and rooms among
its ALJs.

                       Figure 2: ALJ Monday/Friday Scheduling Trends




          Source: Office of the Inspector General analysis of ODAR scheduling data.

The agreement between SSA and the ALJ union guarantees that ALJs may work at
home (Flexiplace) for a minimum of 4 days per month. 8 The agreement provides this
flexibility as long as ALJs schedule no more than 2 consecutive Flexiplace workdays in
a workweek. However, staff from several hearing offices reported scheduling difficulties
when ALJs worked at home twice a week because they were not available for hearings
2 days each week (about 40 percent of the time). In fact, one HOD told us that at least
two hearing rooms were generally available, but she could not schedule hearings in
these rooms because ALJs were working at home. Although over 60 percent of the
ALJs we reviewed used Flexiplace, hearing office staff reported that working at home
once a week generally did not cause scheduling issues. To address scheduling
difficulties, one hearing office (that previously permitted ALJs to work at home twice a
week) began limiting Flexiplace to no more than 4 days a month. As such, we
encourage ODAR to analyze hearing office and ALJ performance data to determine
whether they should limit ALJs’ use of Flexiplace to once a week, where appropriate.

In addition, SSA policy permits ALJs to request reassignment to another hearing office
once they have completed their 90-day service requirement. 9 However, staff from
several hearing offices told us this policy created scheduling difficulties because some
newly appointed ALJs requested a transfer soon after meeting their service

8
  International Federation of Professional and Technical Engineers Term Agreement, Article 15, § 3-F
(2001).

9
    5 C.F.R. § 330.502 (2012).


ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)                    6
requirement. One HOD told us this issue was his greatest obstacle to scheduling cases
for hearings. In fact, he reported that nine ALJs transferred to another hearing office in
2011. Another HOD reported that five ALJs in her office transferred in summer 2011.
In both hearing offices, staff cancelled scheduled hearings for these ALJs. Although
staff reported they rescheduled these hearings, the process often caused hearing
delays for the rescheduled claimants as well as delays for RTS cases ODAR could have
scheduled for those available hearing times. As such, we encourage ODAR to
reexamine its policy of allowing ALJs to transfer to another hearing office soon after
meeting their 90-day service requirement.

Below are anecdotal comments some staff at the 11 hearing offices we contacted
reported about scheduling hearings with ALJs.

•   One HOD told us that four ALJs in her office needed “performance assistance or
    termination.” The HOD reported that these ALJs were inflexible and processed
    fewer cases (on average) than other ALJs in the hearing office. In fact, hearing
    office management stopped scheduling hearings for one ALJ so she could complete
    some of her backlogged cases. The HOD also reported that another ALJ held
    numerous supplemental hearings because she routinely scheduled consecutive
    45-minute hearings and generally could not finish in the allotted time. According to
    the HOD, the ALJ knew this was a problem but refused to change her policy.

•   A scheduler told us that one ALJ only scheduled hearings on Tuesdays,
    Wednesdays, or Thursdays. The ALJ also only scheduled hearings in two of the
    seven hearing rooms. Such specific standing orders reduced the ALJs availability
    and caused hearing participants to compete for fewer hearing rooms and dates.

•   A scheduler reported that one ALJ told him not to schedule Friday afternoon
    hearings because he wanted to avoid rush-hour traffic.

•   A scheduler reported that one ALJ disliked being called when she worked at home
    and did not consistently respond to scheduling questions.

Other Obstacles That Impacted Hearing Offices’ Ability to Schedule Hearings

Hearing office personnel cited several other obstacles that impacted their ability to
schedule hearings. Specifically, about one-third of hearing office staff cited availability
of medical and vocational experts as an obstacle to scheduling hearings. Hearing office
staff told us they encountered scheduling issues because of the small pool of available
experts and the competition among surrounding hearing offices that were trying to
schedule from the same limited pool of experts. They told us scheduling is further
complicated when ALJs require experts to appear in person, request medical specialists
(for example, cardiologists), or refuse to use certain experts. For example, one ALJ
stated in his standing orders that he does not use (name omitted) or (name omitted) for
vocational expert testimony or (name omitted) for medical testimony.




ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)       7
Hearing office staff also reported that hearing room availability created scheduling
difficulties when there were more ALJs than hearing rooms. For example, staff in
1 hearing office reported 12 ALJs on staff with only 6 available hearing rooms. To
maximize hearing room use, one hearing office created a rotation calendar where it
assigned days and rooms to each ALJ before scheduling cases for hearings. Hearing
office staff also reported similar scheduling issues because of limited VTC equipment.
For example, staff reported they had difficulty scheduling cases for VTC hearings with
the National Hearing Center because ALJs used the VTC equipped hearing rooms for
in-person hearings. Several hearing office staff told us they could schedule more
hearings if they had additional VTC equipment.

Furthermore, hearing office personnel reported difficulties in scheduling hearings for
incarcerated claimants’ cases. Staff told us they experienced such difficulties because
prisoners often moved to different facilities, and not all facilities had VTC equipment. As
such, these cases remained in RTS status for a significant amount of time. For
example, one scheduler reported that one case remained in RTS status for 928 days
until the claimant waived his right to a 20-day hearing notice. 10 While these cases
represent a small percentage of RTS cases, hearing office personnel told us they were
some of the oldest cases.




10
     20 C.F.R. § 404.938 (2010).


ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)       8
                                  Matters for Consideration
We support ODAR’s goal of holding hearings as soon as possible after a claimant files a
hearing request. We also acknowledge that trying to accommodate the schedules and
preferences of multiple hearing participants is a cumbersome process. However, based
on our review of 11 hearing offices, we believe ODAR can take additional steps to
address some of the key obstacles staff face during the scheduling process, thus
improving the timeliness of hearings.

While we believe ODAR should make every effort to accommodate claimant
representatives’ schedules, we also believe these representatives should not have such
a strong influence in the scheduling process. Specifically, we do not believe it is in the
claimant’s best interest when their representatives consistently decline hearing dates or
request multiple postponements. We believe allowing claimant representatives such
broad discretion complicates the scheduling process. To improve the timeliness of
hearings, we encourage ODAR to consider limiting the number of times it offers
claimant representatives specific dates and times before scheduling a hearing.

In addition, while ODAR policy allows ALJs to set the time and place for hearings, some
policies and practices created scheduling difficulties. Specifically, hearing office staff
reported that scheduling difficulties occurred when ALJs did not routinely schedule
hearings on Mondays, Fridays, or both; used Flexiplace more than once a week; or
transferred to another hearing office soon after meeting their service requirement. As
such, we encourage ODAR to analyze hearing office and ALJ performance data to
determine whether it should take additional steps to address key obstacles hearing
office staff face during the scheduling process. Specifically, we believe ODAR should
encourage hearing offices to better coordinate hearing dates and rooms among its
ALJs. We also encourage ODAR to consider limiting ALJs use of Flexiplace to once a
week, where appropriate. Furthermore, we encourage ODAR to reexamine its policy of
allowing ALJs to transfer to another hearing office soon after meeting their 90-day
service requirement.

In response to our draft report, SSA stated it will use the information provided in the
report to assist it in effectively managing hearing workloads.




ODAR’s Process for Scheduling Hearings When Cases Are in RTS Status (A-08-12-21293)       9
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




ODAR’s Process for Scheduling Hearing When Cases Are in RTS Status (A-08-12-21293)
                                                                        Appendix A

Acronyms
    ALJ                Administrative Law Judge

    C.F.R.             Code of Federal Regulations

    CPMS               Case Processing and Management System

    HALLEX             Hearings, Appeals and Litigation Law Manual

    HOD                Hearing Office Director

    ODAR               Office of Disability Adjudication and Review

    OIG                Office of the Inspector General

    RTS                Ready to Schedule

    SSA                Social Security Administration

    UNAP               Unassigned ALJ Review Pre-Hearing

    VTC                Video Teleconferencing




ODAR’s Process for Scheduling Hearing When Cases Are in RTS Status (A-08-12-21293)
                                                                        Appendix B

Scope and Methodology
To achieve our objectives, we:

•   Reviewed applicable laws and Social Security Administration (SSA) policies and
    procedures, including the Office of Disability Adjudication and Review’s (ODAR)
    Hearings, Appeals and Litigation Law manual. We also reviewed prior SSA Office of
    the Inspector General reports.

•   Determined the volume of cases in the “Ready to Schedule” (RTS) status as of
    December 30, 2011, using information in ODAR’s Case Processing and
    Management System. We then ranked hearing offices by RTS cases per
    administrative law judge (ALJ).

•   Identified hearing office times using the public use data file NETSTAT report for
    January 2012, which is the average time (in months) from the hearing request date
    until a hearing is held for claims pending in ODAR’s hearing offices.

•   Selected 11 hearing offices to identify trends regarding cases that were ready to
    schedule for hearings. We selected 7 hearing offices with a high number (average
    of 190 or more) of RTS cases per ALJ (as of December 30, 2011) and had an
    average hearing office time of at least 10 months. To provide a balanced review, we
    also selected 2 hearing offices with a median average (about 57 RTS cases) per
    ALJ and 2 offices with a low average (about 5 cases) per ALJ. The hearing offices
    selected were Akron, Ohio; Baltimore, Maryland; Charleston, West Virginia;
    Charlotte, North Carolina; Downey, California; Grand Rapids, Michigan; Greensboro,
    North Carolina; Houston-Bissonnet, Texas; Oklahoma City, Oklahoma; Seven
    Fields, Pennsylvania; and Tallahassee, Florida.

•   Analyzed ODAR data for cases scheduled and hearings held for the period
    October 1 through December 30, 2011.

•   Interviewed Hearing Office Directors and hearing office staff assigned to schedule
    hearings (schedulers).

We limited our scope to analyzing ODAR scheduling information and determined the
data to be sufficiently reliable given the evaluation objectives. We performed our review
from March through June 2012 in Birmingham, Alabama; Charlotte and Greensboro,
North Carolina; and Oklahoma City, Oklahoma. The principle entity audited was the
Office of the Deputy Commissioner for Disability Adjudication and Review. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.




ODAR’s Process for Scheduling Hearing When Cases Are in RTS Status (A-08-12-21293)
                                                                         Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments
In addition to those named above:

   Kathy Yawn, Senior Auditor

   Josh Torres, Program Analyst

   Matt Nelson, Graduate Intern

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-08-12-21293.




ODAR’s Process for Scheduling Hearing When Cases Are in RTS Status (A-08-12-21293)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
